No. 19-123
In the

Supreme Court of the United States
__________________

SHARONELL FULTON, ET AL.,
Petitioners,
v.
CITY OF PHILADELPHIA, PENNSYLVANIA, ET AL.,
Respondents.
__________________
On Writ of Certiorari to the
United States Court of Appeals for the Third Circuit

__________________

BRIEF OF GREAT LAKES JUSTICE CENTER AS
AMICUS CURIAE IN SUPPORT OF PETITIONERS

__________________

WILLIAM WAGNER
Counsel of Record
ERIN ELIZABETH MERSINO
JOHN S. KANE
GREAT LAKES JUSTICE CENTER
5600 W. Mount Hope Hwy
Lansing, MI 48917
(517) 322-3207
AttyContact@GreatLakesJC.org
Counsel for Amicus Curiae

June 3, 2020
Becker Gallagher · Cincinnati, OH · Washington, D.C. · 800.890.5001

i
QUESTIONS PRESENTED
The City of Philadelphia chose to exclude a religious
agency from the City’s foster care system unless the
agency agreed to act and speak in a manner
inconsistent with its sincere religious beliefs about
marriage. The Third Circuit upheld that action under
Employment Division v. Smith.
The questions presented are:
1. Whether free exercise plaintiffs can only succeed
by proving a particular type of discrimination
claim—namely that the government would allow the
same conduct by someone who held different religious
views—as two circuits have held, or whether courts
must consider other evidence that a law is not neutral
and generally applicable, as six circuits have held?
2. Whether Employment Division v. Smith should be
revisited?
3. Whether a government violates the First
Amendment by conditioning a religious agency’s ability
to participate in the foster care system on taking
actions and making statements that directly contradict
the agency’s religious beliefs?
Amicus Curiae addresses issues number two and
three.

ii
TABLE OF CONTENTS
QUESTIONS PRESENTED . . . . . . . . . . . . . . . . . . . i
TABLE OF AUTHORITIES. . . . . . . . . . . . . . . . . . . iii
STATEMENT OF IDENTITY AND INTERESTS
OF AMICI CURIAE . . . . . . . . . . . . . . . . . . . . . . . . . . 1
SUMMARY OF THE ARGUMENT. . . . . . . . . . . . . . 3
ARGUMENT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4
I. THIS COURT SHOULD REVISIT SMITH
AND RESTORE FULL FUNDAMENTAL
RIGHT STATUS TO THE UNALIENABLE
LIBERTY PROTECTED BY THE FIRST
AMENDMENT . . . . . . . . . . . . . . . . . . . . . . . . . . . 4
A. The Free Exercise of Religious Conscience is
an Unalienable Fundamental Right . . . . . . . . 4
B. E m p l o y m e n t
Division
v.
Sm i t h
Unconstitutionally Diminished the Free
Exercise of Religious Conscience as a
Fundamental Right . . . . . . . . . . . . . . . . . . . . . 5
C. This Court’s Post-Smith Cases Point Toward
Restoring the Free Exercise of Religious
Conscience as an Unalienable Fundamental
Right. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16

iii
TABLE OF AUTHORITIES
CASES
Burwell v. Hobby Lobby Stores, Inc.,
134 S. Ct. 2751 (2014). . . . . . . . . . . . . . . . . . . . . . 9
Church of the Lukumi Babalu Aye, Inc. v.
City of Hialeah,
508 U.S. 520 (1993). . . . . . . . . . . . 6, 11, 12, 13, 14
City of Boerne v. Flores,
521 U.S. 507 (1997). . . . . . . . . . . . . . . . . . . . . . . . 7
Employment Div. v. Smith,
494 U.S. 872 (1990). . . . . . . . . . . . . . . . . . . passim
Gonzales v. O Centro Espirita Beneficente
Uniao do Vegetal, 546 U.S. 418 (2006). . . . . . . . . 7
Hosanna-Tabor Evangelical Lutheran Church
& Sch. v. EEOC, 565 U.S. 171 (2012) . . . . . . . . . 9
Lamb’s Chapel v. Center Moriches Union Free
School Dist., 508 U.S. 384 (1993) . . . . . . . . . . . . 13
Lemon v. Kurtzman,
403 U.S. 602 (1971). . . . . . . . . . . . . . . . . . . . . . . . 2
Masterpiece Cakeshop, Ltd. v. Colorado Civil
Rights Comm’n,
138 S. Ct. 1719 (2018). . . . . . . . . . . 8, 9, 10, 11, 14
McDaniel v. Paty,
435 U.S. 618 (1978). . . . . . . . . . . . . . . . . 12, 13, 14

iv
Mitchell v. Helms,
530 U.S. 793, 120 S. Ct. 2530,
147 L.Ed.2d 660 (2000) . . . . . . . . . . . . . . . . . . . . 13
Obergefell v. Hodges,
135 S. Ct. 2584 (2015). . . . . . . . . . . . . . 4, 8, 10, 15
Rosenberger v. Rector and Visitors of Univ. of Va.,
515 U.S. 819 (1995). . . . . . . . . . . . . . . . . . . . . . . 13
Sherbert v. Verner,
374 U.S. 398 (1963). . . . . . . . . . . . . . . . 5, 6, 13, 14
Trinity Lutheran Church of Columbia, Inc. v.
Comer, 137 S. Ct. 2012 (2017) . . . . . . 9, 12, 13, 14
Widmar v. Vincent,
454 U.S. 263 (1981). . . . . . . . . . . . . . . . . . . . . . . 13
Wisconsin v. Yoder,
406 U.S. 205 (1972). . . . . . . . . . . . . . . . . . . 5, 6, 12
CONSTITUTION AND STATUTES
U.S. Const. amend I . . . . . . . . . . . . . . . . . . . . . passim
42 U.S.C. § 2000bb, et seq . . . . . . . . . . . . . . . . . . . . . 6
42 U.S.C. § 2000bb(a)(1) . . . . . . . . . . . . . . . . . . . . . . 6
42 U.S.C. § 2000bb(b)(1) . . . . . . . . . . . . . . . . . . . . . . 7
42 U.S.C. § 2000bb(b)(2) . . . . . . . . . . . . . . . . . . . . . . 7
42 U.S.C. § 2000bb-1 . . . . . . . . . . . . . . . . . . . . . . . . . 6

1
STATEMENT OF IDENTITY
AND INTERESTS OF AMICI CURIAE
Pursuant to Supreme Court Rule 37, Amicus
Curiae, Great Lakes Justice Center, submits this brief.1
Amicus Curiae is a non-profit 501(c)(3) organization
that promotes principles of good governance and the
Rule of Law. Most pertinent to the instant matter,
Amicus Curiae encourages this Court to revisit Smith
and restore the objectivist constitutional standard
present in the plain meaning of the words of the Free
Exercise Clause. Amicus Curiae believes that doing so
is necessary to restore the right of all persons to
exercise fundamental freedoms under the First
Amendment, as applied to the States through the
Fourteenth Amendment. Amicus Curiae cares deeply
about the social and legal impact of politicallyunaccountable judicial decisions that improperly
change the plain meaning of constitutional provisions.

1

Respondents City of Philadelphia, Department of Human
Services for the City of Philadelphia, and Philadelphia Commission
on Human Relations granted blanket consent for the filing of
Amicus Curiae in this matter. Amicus Curiae sought consent from
both the Petitioners Sharonell Fulton, Toni Lynn Simms-Busch,
and Catholic Social Services; and Intervenors Support Center for
Child Advocates, and Philadelphia Family Pride, and received
consent from the Petitioners’ and Intervenor’s counsel of record.
Amicus Curiae further states that no counsel for any party
authored this brief in whole or in part, and no counsel or party
made a monetary contribution intended to fund the preparation or
submission of this brief. No person or entity, other than the Great
Lakes Justice Center, made a monetary contribution to the
preparation or submission of this Amicus Curiae brief.

2
Our lawyers’ experience includes representing
national religious organizations as parties and as
Amici Curiae before this Court, as well as in the
highest levels of government in other nations. We
previously represented state and federal legislators as
Amici Curiae encouraging this Court to: 1) look to the
plain meaning of the words in the Establishment
Clause; and 2) revisit Lemon v. Kurtzman, 403 U.S. 602
(1971). In the instant case Amicus Curiae encourages
this Court to 1) look to the plain meaning of the words
in the Free Exercise Clause; and 2) revisit Employment
Div. v. Smith, 494 U.S. 872 (1990).
Amicus Curiae works with legislative, executive,
and judicial bodies, as well as with citizen groups, to
further good governance practices and the Rule of Law.
With experience in all three branches of government,
Amicus Curiae understands the proper scope of the
Article III judicial power and the proper role of the
federal judiciary in our constitutional republic. From
its experience, it holds special knowledge helpful to this
Court about the importance of properly applying
Constitutional provisions, like the Free Exercise
Clause, that limit the exercise of governmental power.
Amicus Curiae files this brief to encourage this
Honorable Court to guide the American judiciary, and
other branches of government, to return to a sound
constitutional basis for religious liberty in our nation.

3
SUMMARY OF THE ARGUMENT
The First Amendment to the United States
Constitution prohibits governmental infringement on
the free exercise of religion. U.S. Const. amend. I. The
writers of the First Amendment did not say “make no
law prohibiting the free exercise of religion, unless you
can find an unelected city official or federal judge to say
the law is neutral and generally applicable.”
In Employment Division v. Smith, this Court drifted
away from its constitutional jurisprudence that
recognized freedom of religion as a fundamental liberty
interest. 494 U.S. 872 (1990). Even though the
government’s action in Smith substantially infringed
on the free exercise of religious liberty, Smith required
no justification by the government for its conduct. To
reach this radical result, Smith deemed neutral laws of
general applicability excepted from the constitutional
protection contra-expressed in the plain language of
the Free Exercise Clause. Smith did so despite a
dearth of any supporting jurisprudence deeply rooted
in our Nation’s history and traditions, or implicit in the
concept of ordered liberty.
Unless a State affirmatively acts to restore
fundamental right status to the free exercise of
religion, Smith, as a practical matter, denudes any
meaningful constitutional protection for religious
liberty as a limit on the exercise of the State’s power.
Ubiquitous special preferences such as sexual
orientation and gender identity (hereinafter “SOGI”),
imposed by state and local authorities, exacerbate the
threat. These government actions necessarily require
Christian people to: 1) relinquish their religious

4
identity recognized by this Court in Obergefell v.
Hodges; and 2) surrender their right to freely exercise
their religious conscience protected by the First
Amendment. 135 S. Ct. 2584 (2015). This Court,
therefore, ought to revisit and correct Smith.
The government-imposed SOGI conditions in the
case at bar substantially interfere with Petitioners’
religious identity and exercise of its religious
conscience. Here, the City expressly requires
Petitioners to renounce their religious character and
identity to participate in an otherwise accessible public
foster care program. When a governmental condition
imposes a penalty on the free exercise of religion that
government action must face the “most rigorous”
scrutiny.
ARGUMENT
I. THIS COURT SHOULD REVISIT SMITH AND
RESTORE FULL FUNDAMENTAL RIGHT
STATUS TO THE UNALIENABLE LIBERTY
PROTECTED BY THE FIRST AMENDMENT.
Ratified in 1791, the First Amendment to the
United States Constitution provides that “Congress
shall make no law respecting the establishment of
religion or prohibiting the free exercise thereof. . . .”
U.S. Const. amend I. This language includes no
exemption for laws the government labels as “neutral.”
A. The Free Exercise of Religious Conscience
is an Unalienable Fundamental Right.
Reflecting the accurate understanding of the plain
meaning of the Free Exercise Clause, this Court, in

5
Sherbert v. Verner and Wisconsin v. Yoder, struck down
government actions that substantially interfered with
a person’s sincerely held religious beliefs. Sherbert,
374 U.S. 398 (1963) (denying unemployment benefits to
a person who lost her job when she did not work on her
Sabbath); Yoder, 406 U.S. 205 (1972) (overturning
convictions for violations of state compulsory school
attendance laws incompatible with sincerely held
religious beliefs). Under these decisions, a person’s
unalienable right to the free exercise of religious
conscience appropriately required government to
provide a compelling interest to justify its interfering
with such a fundamental liberty interest. This Court,
in applying strict scrutiny to the government actions,
further required the government to show it used the
least restrictive means available to accomplish its
interest.
B. E m p l o y m e n t
Division
v.
Smith
Unconstitutionally Diminished the Free
Exercise of Religious Conscience as a
Fundamental Right.
In Employment Division v. Smith, this Court
departed from its constitutional jurisprudence
recognizing freedom of religion as a fundamental
liberty interest protected by the First Amendment. 494
U.S. 872 (1990). Even though the government’s action
in Smith substantially infringed on the free exercise of
religious liberty, Smith required no justification by the
government for its conduct. To reach this radical
result, Smith deemed neutral laws of general
applicability excepted from the constitutional
protection contra-expressed in the clear and plain

6
language of the Free Exercise Clause.2 Smith did so
despite a dearth of any supporting jurisprudence
deeply rooted in our Nation’s history and traditions, or
implicit in the concept of ordered liberty.
In response to Smith, Congress enacted the
Religious Freedom Restoration Act (RFRA), 42 U.S.C.
§ 2000bb, et seq. The act expressly provides that:
Government shall not substantially burden a
person’s exercise of religion, even if the burden
results from a rule of general applicability,
[unless] … it demonstrates that application of
the burden to the person— (1) is in furtherance
of a compelling governmental interest; and (2) is
the least restrictive means of furthering that
compelling governmental interest.
42 U.S.C. § 2000bb-1. In promulgating the RFRA,
Congress correctly acknowledged: “the framers of the
Constitution, recognizing free exercise of religion as an
unalienable right, secured its protection in the First
Amendment to the Constitution.” 42 U.S.C.
§ 2000bb(a)(1). Congress stated the purpose of the
legislation was
(1) to restore the compelling interest test as set
forth in Sherbert v. Verner and Wisconsin v.
Yoder, and to guarantee its application in all
cases where free exercise of religion is

2

Cf. Church of the Lukumi Babalu Aye, Inc. v. City of Hialeah, 508
U.S. 520 (1993) (applying strict scrutiny to a law substantially
infringing on religious liberty when, in the subjective view of the
reviewer, the law is not a neutral law of general applicability).

7
substantially burdened; and (2) to provide a
claim or defense to persons whose religious
exercise is substantially burdened by
government.
42 U.S.C. § 2000bb(b)(1)-(2). Although this Court
upheld the RFRA as applied to federal government
actions, Gonzales v. O Centro Espirita Beneficente
Uniao do Vegetal, 546 U.S. 418 (2006), it also held
Congress acted outside the scope of its constitutional
authority as applied to the states, City of Boerne v.
Flores, 521 U.S. 507 (1997). Thus, notwithstanding the
plain language of the Free Exercise Clause, and despite
Congress’ attempt to statutorily reinstate an accurate
understanding of the correct constitutional standard,
Smith unconscionably continues to allow State
authorities to substantially interfere with the free
exercise of religious conscience. Consequently, unless
a State affirmatively acts to restore fundamental right
status to the free exercise of religion, Smith, as a
practical matter, destroys any meaningful
constitutional protection for religious liberty as a limit
on the exercise of the State’s power. This Court,
therefore, ought to revisit and reverse Smith.
Ubiquitous special SOGI preferences, imposed by
state and local authorities, exacerbate the threat to the
free exercise of religious conscience. These government
actions necessarily require Christian people to:
1) relinquish their religious identity; and 2) surrender
their right to freely exercise their religious conscience.
State enforcement of “neutral” SOGI preferences often
weaponize State action to eliminate the Free Exercise
Clause as an important constitutional constraint on the

8
exercise of State authority. Indeed, since Smith,
religious people in our nation face a far more nefarious
predicament than the drafters and ratifiers of the
Constitution and Bill of Rights could ever have
imagined.
C. This Court’s Post-Smith Cases Point
Toward Restoring the Free Exercise of
Religious Conscience as an Unalienable
Fundamental Right.
In Obergefell, this Court found in the Constitution
a right of personal identity for all citizens. 135 S. Ct.
2584 (2015). The Justices in the majority held that:
“The Constitution promises liberty to all within its
reach, a liberty that includes certain specific rights
that allow persons, within a lawful realm, to define and
express their identity.” Id. at 2593; see also Masterpiece
Cakeshop, Ltd. v. Colorado Civil Rights Comm’n, 138
S. Ct. 1719, 1727 (2018).
Obergefell affirmed,
therefore, not just freedom to define one’s belief system,
but freedom to exercise one’s conscience associated
with it.
Because Obergefell defined a fundamental liberty
right as including “most of the rights enumerated in
the Bill of Rights,” and “liberties [that] extend to
certain personal choices central to individual dignity
and autonomy, including intimate choices that define
personal identity and beliefs,” this new right of
personal identity must broadly comprehend factual
contexts well beyond the same-sex marriage facts of
that case. 135 S. Ct. at 2589. If this Court meant what
it said in Obergefell, the right of personal identity
applies not just to those who find their identity in their

9
sexuality and sexual preferences—but also to citizens
who define their identity by their religious beliefs.
Christian people, like Petitioners, find their identity
in Jesus Christ and the ageless, sacred tenets of His
word in the Holy Bible. For followers of Jesus,
adhering to His commands is the most personal choice
central to their individual dignity and autonomy. A
Christian person, whose identity inheres in his or her
religious faith orientation, is entitled to at least as
much constitutional protection as those who find their
identity in their sexual preference orientation.
There can be no doubt that this Court’s newly
created substantive due process right of personal
identity protects against government authorities who
use public policy to persecute, oppress, and
discriminate against Christian people.
Indeed,
government must not use its power in ways hostile to
religion or religious viewpoints under this new
“autonomy” paradigm. Masterpiece Cakeshop, 138 S.
Ct. at 1731. Certainly, government ought to protect
and not impede the free exercise of religious conscience.
See, e.g., Trinity Lutheran Church of Columbia, Inc. v.
Comer, 137 S. Ct. 2012, 2022 (2017) (holding the
government violates the Free Exercise Clause if it
conditions a generally available public benefit on an
entity giving up its religious character); Burwell v.
Hobby Lobby Stores, Inc.,134 S. Ct. 2751, 2775 (2014)
(holding the RFRA applies to federal regulation of
activities of closely held for profit companies);
Hosanna-Tabor Evangelical Lutheran Church & Sch.
v. EEOC, 565 U.S. 171, 196 (2012) (barring an
employment discrimination suit brought against a

10
religious school).
State actions must uphold
constitutionally-protected freedoms, not grant special
protections for some, while coercing others to engage in
conduct contrary to their religious identity and
conscience.
Contrary to Obergefell’s holding, Smith eviscerates
the constitutional right to one’s religious identity and
free exercise, enabling States to subjectively deem
infringement on religious conscience as neutral and
generally applicable (as it always does when it imposes
special SOGI preferences). This Court should revisit
Smith’s diminishment of religious liberty, especially in
light of Obergefell’s recognition of constitutional
protection afforded to personal identity, liberty, and
equal protection.
Indeed, this Court held that “religious and
philosophical objections” to SOGI issues are
constitutionally protected. Masterpiece Cakeshop, 138
S. Ct. at 1727, (citing Obergefell 135 S. Ct. at 2607 and
holding that “[t]he First Amendment ensures that
religious organizations and persons are given proper
protection as they seek to teach the principles that are
so fulfilling and so central to their lives and faiths, and
to their own deep aspirations to continue the family
structure they have long revered.”).
For Christian people in the Smith environment,
though, that right continues to manifest as a mirage.
In practice, state and local government authorities
elevate SOGI rights above all others, especially the free
exercise of religious conscience. Theophobia has
replaced homophobia, and the government has become
the installer and enforcer of this new tyranny. Special

11
preferences embodied in government SOGI
classifications, like those in the case at bar, exalt a
particular belief system of what is offensive over
another and, by its very nature, signals official
disapproval of a Christian person’s religious identity
and religious beliefs. “Just as no official, high or petty,
can prescribe what shall be orthodox in politics,
nationalism, religion, or other matters of opinion, it is
not, as the Court has repeatedly held, the role of the
State or its officials to prescribe what shall be
offensive.” Masterpiece Cakeshop 138 S. Ct. at 1731
(internal quotations and citations omitted).
As this Court has so clearly stated:
[T]he government, if it is to respect the
Constitution’s guarantee of free exercise, cannot
impose regulations that are hostile to the
religious beliefs of affected citizens and cannot
act in a manner that passes judgment upon or
presupposes the illegitimacy of religious beliefs
and practices. . . . The Constitution commits
government itself to religious tolerance, and
upon even slight suspicion that proposals for
state intervention stem from animosity to
religion or distrust of its practices, all officials
must pause to remember their own high duty to
the Constitution and to the rights it secures.
Masterpiece Cakeshop, 138 S. Ct. at 1731 (citing
Church of Lukumi Babalu Aye, 508 U.S. at 534, 547)
(internal quotes omitted).
While the Court here characterized its analysis as
addressing a lack of neutrality in the government’s

12
action, government imposition of SOGI preferences
unavoidably are always hostile and can never be
“neutral” toward the religious identity and beliefs of
orthodox Christian people. Indeed, special SOGI
preferences, like those present here, necessarily require
Christian people to relinquish their religious identity
and the freedom to exercise their religious conscience.
For the “free exercise” of religion to have meaning, it
must include the right to hold and manifest beliefs
without fear of government punishment or coercion.
In Trinity Lutheran, the government coercively
conditioned a generally available public benefit on an
entity giving up its religious character. Trinity
Lutheran Church of Columbia, Inc. v. Comer, 137 S. Ct.
2012 (2017). This Court reaffirmed that,
The Free Exercise Clause “protect[s] religious
observers against unequal treatment” and
subjects to the strictest scrutiny laws that target
the religious for “special disabilities” based on
their “religious status.” Church of Lukumi
Babalu Aye, Inc. v. Hialeah, 508 U.S. 520, 533,
542 . . . Applying that basic principle, this Court
has repeatedly confirmed that denying a
generally available benefit solely on account of
religious identity imposes a penalty on the free
exercise of religion that can be justified only by
a state interest “of the highest order.” McDaniel
v. Paty, 435 U.S. 618, 628, 98 S. Ct. 1322, 55
L.Ed.2d 593 (1978) (plurality opinion)
(quoting Wisconsin v. Yoder, 406 U.S. 205, 215,
92 S. Ct. 1526, 32 L.Ed.2d 15 (1972)).
Trinity Lutheran, 137 S. Ct. at 2019. Trinity Lutheran

13
went on to recount “the fundamentals” of this Court’s
free exercise jurisprudence:
A law . . . may not discriminate against “some or
all religious beliefs.” [Church of Lukumi Babalu
Aye,] 508 U. S., at 532. . . . Nor may a law
regulate or outlaw conduct because it is
religiously motivated. And, citing McDaniel and
Smith, we restated the now-familiar refrain: The
Free Exercise Clause protects against laws that
“‘impose[ ] special disabilities on the basis of . . .
religious status.’” 508 U.S., at 533 (quoting
Smith, 494 U.S., at 877, 110 S. Ct. 1595); see
also Mitchell v. Helms, 530 U.S. 793, 828, 120
S.Ct. 2530, 147 L.Ed.2d 660 (2000) (plurality
opinion) (noting “our decisions that have
prohibited governments from discriminating in
the distribution of public benefits based upon
religious status or sincerity”[ ).]
Trinity Lutheran, 137 S. Ct. at 2021 (also citing
Rosenberger v. Rector and Visitors of Univ. of Va., 515
U.S. 819 (1995); Lamb’s Chapel v. Center Moriches
Union Free School Dist., 508 U.S. 384 (1993); Widmar
v. Vincent, 454 U.S. 263 (1981)).
The government imposed SOGI conditions in the
case at bar substantially interfere with Petitioners’
religious identity and exercise of its religious
conscience. Philadelphia ought not require Petitioners
to disavow their sincerely held religious beliefs in order
to participate in its city foster care program. Sherbert
teaches that the “imposition of such a condition upon
even a gratuitous benefit inevitably deter[s] or
discourage[s] the exercise of First Amendment rights.”

14
374 U.S. at 405.
The City of Philadelphia’s
discrimination against Petitioners’ religious exercise
here lies in its refusal to allow the Petitioners—solely
because it is a religious organization with sincerely
held religious doctrines—to participate on equal footing
with secular organizations informed by secular belief
systems, in the City’s program.
Here the City expressly requires Petitioners to
renounce their religious character and identity to
participate in an otherwise accessible public foster care
program. When a government condition like this one
imposes a penalty on the free exercise of religion, that
government action must face the “most rigorous”
scrutiny. Trinity Lutheran, 137 S. Ct. at 2016; Church
of the Lukumi Babalu Aye, 508 U.S. at 546. “Under
that stringent standard, only a state interest ‘of the
highest order’ can justify the government’s
discriminatory policy.” Trinity Lutheran, 137 S. Ct. at
2024 (citing McDaniel, 435 U.S. at 628) (internal
quotation marks omitted).
And as Masterpiece
Cakeshop recognized, “these disputes must be resolved
with tolerance, without undue disrespect to sincere
religious beliefs, and without subjecting gay persons to
indignities when they seek goods and services in an
open market.” 138 S. Ct. at 1732.
Perhaps an important place to start is
understanding that the expression of one’s religious
identity, and exercise of religious conscience is not
invidious discrimination. Christian people know God
created all human life in His image. Thus, for
Christian people, every person holds inherent value
and deserves respect. No sincere follower of Jesus

15
would, therefore, ever wilfully discriminate against
another person based on who they are. Christian
people will, though, never concede their
constitutionally protected religious identity and free
exercise of conscience. Amicus Curiae condemns
invidious discrimination and holds no animus toward
anyone. We seek respectful consideration of all
viewpoints and reject the notion that honest
disagreement based on religious conscience equates
with bigotry.
Obergefell teaches that beyond the First
Amendment’s protection for religious liberty, a
substantive due process right to personal identity now
provides religious people additional enhanced
constitutional protection. Government action not only
must avoid compelling a religious citizen to facilitate or
participate in policies contrary to their religious
conscience protected by the First Amendment, it must
also refrain from violating their personal identity
rights. In this light, therefore, Smith’s low-level
judicial review for neutral and generally applicable
laws can no longer stand. This Court should, therefore,
revisit Smith and restore the right of all persons to
exercise fundamental freedoms under the First
Amendment, as applied to the States through the
Fourteenth Amendment.

16
CONCLUSION
For the reasons provided in this brief, Amicus
Curiae urges this Court to revisit Smith, restore the
right of all persons to exercise fundamental freedoms
under the First Amendment, and reverse the decision
of the Third Circuit.
Respectfully submitted,
WILLIAM WAGNER
Counsel of Record
ERIN ELIZABETH MERSINO
JOHN S. KANE
GREAT LAKES JUSTICE CENTER
5600 W. Mount Hope Hwy
Lansing, MI 48917
(517) 322-3207
AttyContact@GreatLakesJC.org
Counsel for Amicus Curiae

